OFFICE OF INSPECTOR GENERAL



AUDIT OF THE AFRICAN
DEVELOPMENT FOUNDATION’S
ACTIVITIES IN NIGERIA
AUDIT REPORT NO. 7-ADF-11-002-P
February 2, 2011




DAKAR, SENEGAL

  Office of Inspector General


  February 2, 2011


  MEMORANDUM

  TO:                African Development Foundation President, Lloyd Pierson

  FROM:              Regional Inspector General, Gerard Custer /s/

  SUBJECT:           Audit of the African Development Foundation’s Activities in Nigeria
                     (Report No. 7-ADF-11-002-P)

  This memorandum transmits our report on the subject audit. In finalizing the report, we
  carefully considered your comments on the draft report, and we have included them in
  their entirety in appendix II.

  The report includes 15 recommendations for your action. Based on management’s
  comments, we have deleted one recommendation (recommendation 2 in the draft
  report), and have renumbered the recommendations accordingly in this report. Based
  upon your comments and actions planned, a management decision has been reached
  on recommendations (renumbered) 1, 2, 3, 4, 5, 7, 8, 10, 11, 12, 13, 14, and 15.
  Determination of final action for the report recommendations will be made by ADF’s audit
  committee and we ask that we be notified upon completion of the proposed corrective
  actions.

  A management decision has not been reached on recommendations (renumbered) 6
  and 9. Please provide us with written notice within 30 days of actions planned or taken
  to address recommendations 6 and 9. A management decision can be achieved when
  ADF and we agree on a firm plan of action, with target dates, for implementing the
  recommendations.

  I appreciate the cooperation and courtesy extended to my staff during the audit.

  cc: Board of Directors, African Development Foundation



U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 4 


     Housing Construction Was Delayed ........................................................................... 4 


     Low-Income Houses Were Not 

     Occupied by Eligible Beneficiaries .............................................................................. 4 


     The Quality of Constructed Houses 

     Was Not Adequate ...................................................................................................... 7 


     Activity Monitoring by ADF and DDI 

     Was Not Adequate ...................................................................................................... 9 


     Branding and Marking Policy Needed....................................................................... 12 


Evaluation of Management Comments ....................................................................... 13 


Appendix I—Scope and Methodology......................................................................... 15 


Appendix II—Management Comments........................................................................ 17 

SUMMARY OF RESULTS 

The African Development Foundation (ADF) is a U.S. Government corporation
established by Congress in 1980 to support African-designed and African-driven
solutions that address grassroots economic and social problems. ADF provides grants
of up to $250,000 directly to underserved and marginalized community groups and
enterprises. The grants help organizations create tangible benefits such as increasing
or sustaining the number of jobs in a community, improving income levels, and
addressing social development needs.

ADF currently operates in 21 African countries, including Nigeria, where an estimated 45
percent of the country’s population of more than 120 million are living below the poverty
line. ADF implements and monitors its programs in six states in Nigeria through its
partner organization Diamond Development Initiatives (DDI), a Nigerian-owned and
operated nonprofit, nonpolitical, and nonreligious organization whose mission is to
economically empower the rural and urban poor through the provision of financial and
technical support to grassroots development organizations.

Oversight of ADF’s projects is provided by an ADF country program coordinator (CPC)
based in Nigeria, who reports to an ADF regional program director (RPD) based in
Washington, DC. The CPC and RPD are responsible for screening and selecting
grantees, visiting grantee project sites, and working with DDI to provide oversight of
activities to grantees. The CPC also participates in grant audits and closeout activities
for each project as directed by the RPD in accordance with the annual work plan
developed by the RPD.

ADF currently has 39 active grants in Nigeria with total funding of $5,043,736 for various
economic and social sectors implemented by Nigerians in their local communities.
These grants fund activities including the construction of low-cost housing, rice
production and processing, leather production and processing, fish farming and
processing, metalworking, ginger processing, sorghum and dairy production and
processing, food and beverage catering, groundnut production and processing, and
garment tailoring. Of ADF’s 39 active grants in Nigeria, 10 grants with total funding of
$1,788,674 were selected for the audit, as described in table 1.

Table 1. Grantees Selected for Audit

 Activity Description            Objective                 Grantee         Estimated    Program
                                                                            Budget       Dates
Construction of         Improve living conditions for       Universal       $248,257   2007–2011*
Low-Cost Housing        poor and low-income residents   Turnkey Projects
                        by designing and constructing          Ltd.
                        low-cost homes.                 El Noor Ventures   $248,257    2007–2011*
                                                             Limited
                                                         Garcons Nigeria   $130,368    2007–2011*
                                                             Limited
                                                            Spectarch      $248,257    2007–2011*




                                                 1

Activity Description       Objective                            Grantee        Estimated        Program Dates
                                                                                Budget
Metalworking and           Improve living standards for the     Physically      $100,000          2009–2011
Tailoring                  physically handicapped in Kano      Handicapped
                           state by establishing a metal      Association of
                           workshop, a tailoring workshop,    Nigeria-Kano
                           and a revolving loan fund.             State
Rice Production and        Improve the standard of living       Danhassan       $100,000          2009–2011
Processing                 of low-income rice producers          Fadama
                           through sustained expansion.          Farmers
                                                               Cooperative
                                                                 Society
Sorghum Production and     Increase incomes of small-scale    Da All Green      $250,000          2009–2014
Processing                 sorghum farmers.                   Seeds Limited
Fruit Production and       Improve living standards of         NIYYA Food       $242,983          2007–2012
Processing                 private sector workers by            and Drink
                           producing fresh fruit juices.        Company
                                                                 Limited
Groundnut Oil              Improve living standards by          Aiya Pure       $135,869          2007–2012
Production                 producing groundnut products.      Groundnut Oil
                                                                   Mills
Food and Beverage         Improve living standards of           Children’s     $100,750           2009–2011
Catering                  autistic children by providing      Developmental
                          diagnostic assessments,                Centre
                          treatment, vocational training,
                          and other social services.
* These programs were not completed timely and received extensions on their completion dates.

This audit was conducted to determine whether ADF/Nigeria implemented and
monitored its activities in accordance with required policies and regulations to ensure
that project objectives were achieved.

The audit team concluded that ADF/Nigeria has not implemented and monitored the 10
key projects audited in accordance with required policies and regulations to ensure that
project objectives were achieved. The audit found that construction of the houses was
delayed by at least 13 months (only 90 out of 156 houses had been built at the time of
the audit) (page 4); low-income houses were not occupied by eligible beneficiaries (87 of
the 90 completed houses have remained empty for up to a year after completion and 3
houses were allocated to state government officials rather than low-income civil servants
(pages 4–7); and the quality of the constructed houses was not adequate (cracked walls
and poor foundation) owing to poor-quality soil selected for the construction sites (pages
7–9).

The audit also found that activity monitoring by ADF and DDI was not adequate (pages
9–11) and ADF did not have a branding and marking policy (page 12). To address these
issues, the audit recommends that ADF:

    	 Develop and implement a plan with a timeline for obtaining donated land and
       completing the remaining 66 houses (page 4).

    	 Formalize an agreement with the Kano State Government (page 7).

    	 Clearly delegate authority for selecting beneficiaries in writing (page 7).




                                                         2

   	 Ensure that the process for identifying beneficiaries is transparent (page 7).

   	 Allocate the remaining houses to eligible beneficiaries (page 7).

   	 Identify legally available options for remedying the current occupation of houses
      by ineligible beneficiaries and implement a remedy accordingly (page 7).

   	 Modify the memorandum of understanding to include joint efforts in assessing the
      suitability of land used for construction of future houses (page 8).

   	 Require that an environmental assessment and preliminary soil quality studies be
      conducted for future construction sites (page 8).

   	 Develop a plan of action for obtaining and documenting inspection certificates for
      all completed houses (page 9).

   	 Establish a plan to ensure that the construction budget for all phases of
      construction meets acceptable standards within the allocated budget (page 9).

   	 Review the work of all grantees and ensure that poor-performing grantees are
      not awarded grants in subsequent phases of the project (page 9).

   	 Develop and implement a plan of action to address the needs of its grantees to
      ensure that grantee project goals are achieved (page 11).

   	 Require its partner to submit a comprehensive monitoring plan that includes all
      projects, site visit coordination efforts, a site visit schedule, and a site visit
      template (page 11).

   	 Amend its country program coordinator’s job description to include all oversight
      responsibilities over the implementing partner, including evaluating the work of
      the partner on a biannual basis (page 11).

   	 Develop and approve a branding and marking policy for its programs and take
      the necessary steps to ensure that the policy is implemented and adhered to by
      its programs in Nigeria (page 12).

ADF agreed with most of our recommendations. On the basis of management’s
comments, we have deleted one recommendation (recommendation 2 in the draft
report), and have renumbered the recommendations accordingly in this report. On the
basis of its comments and planned actions, a management decision has been reached
on recommendations (renumbered) 1, 2, 3, 4, 5, 7, 8, 10, 11, 12, 13, 14, and 15. A
management decision has not been reached on recommendations 6 and 9.

The audit’s scope and methodology are described in appendix I. ADF’s written comments
on the draft report are included as appendix II. Our evaluation of management’s
comments is on page 13.




                                            3

AUDIT FINDINGS

Housing Construction
Was Delayed
According to the memorandum of understanding signed on September 24, 2004,
between DDI and ADF in phase 2 of the project, 156 houses for low-income civil
servants were to be built in 13 local government areas in Kano State by September
2009. However, the project had completed construction for only 90 of the 156 houses at
the time of the audit team’s visit in September 2010. According to ADF officials, the
project has again been extended until June 2011 for completion of the remaining 66
houses.

The delays were primarily due to difficulties in obtaining the donated land from the Kano
State government. According to the agreement between the Kano State government
and ADF, Kano State would provide land for construction of 156 houses. However, the
agreement was not specific about when the land was to be provided and Kano State
was slow in identifying land for the construction of houses and providing the legal
authorization. Consequently, although ADF signed agreements with grantees in
September 2007 (for phase 2 of construction), the government had provided only part of
the land for construction in October 2008 (a year later).

Securing land donated by the Kano State government continues to be a challenge for
ADF as it attempts to complete construction of the remaining 66 houses. As of
September 2010, ADF officials and Kano State officials had not identified available land
for construction of the remaining houses. Without a firm plan and timeline to secure the
land, there is no assurance that ADF will be able to complete the construction of the
remaining houses by the due date, which has already been extended twice. Therefore,
this audit makes the following recommendation:

   Recommendation 1. We recommend that the African Development Foundation
   develop and implement a plan with a timeline for obtaining donated land and
   completing the remaining 66 houses.

Low-Income Houses
Were Not Occupied by
Eligible Beneficiaries
As part of an effort to improve the welfare in Kano’s rural communities, ADF and the
Kano State government agreed to develop and complete low-cost, high-quality rural
housing for civil servants and public service employees with income levels between
9,000 naira ($60) and 19,000 naira ($127) per month as a means of helping to attract
and retain the services of these personnel in the rural communities. The tripartite
agreement among the Kano State government, ADF, and Al Kassim Construction
Company stipulated that the Kano State government would be responsible for selecting
qualified beneficiaries and assigning them houses.




                                           4

Although 90 houses had been completed, the audit determined that only 3 were
occupied. The other 87 houses have remained empty, in some cases for more than 1
year. The audit team visited 60 houses, 48 of which had been completed by the
grantees. Table 2 demonstrates the level of completion and occupancy for each of the
housing projects visited at the time of the audit in September 2010.

Table 2: Houses Occupied

                                               Houses                            Houses
                         Houses Scheduled                    Date Houses
       Grantee                              Completed at                       Occupied at
                         for Construction                   Were Completed
                                            Time of Audit                     Time of Audit
 Garcons Nigeria Ltd.           12                  0             N/A               0
 El Noor Ventures Ltd.          24                 12         October 2008          3
 Spectarch                      24                 24         October 2008          0
 Universal Turnkey
 Projects Ltd.                  24                 12         October 2008          0




Photo taken by an OIG auditor on September 30, 2010, of an unoccupied housing project
completed since October 2008.

The Kano government has allocated some of these houses to beneficiaries (although the
houses are still not occupied), but neither it nor ADF has plans or a timeline for allocating
and placing the beneficiaries in the remaining empty houses.

Furthermore, all three occupied houses were occupied by ineligible beneficiaries. Three
ineligible Kano State government officials (not civil servants) had been allocated these
houses―a vice chairman of the local government, a special adviser to the governor
(who substantially upgraded the house), and a political party chairman (who did not live
in the house but is renting it). Moreover, under the program, each owner was required to
pay a mortgage. None of these individuals had made any mortgage payments to which
they had previously agreed.




                                              5

The audit team reviewed housing applications for 12 houses built by El Noor Ventures
Ltd., and discovered that there were only nine applications on file for the houses. None
of the applicants had met the income or other eligibility requirements set forth in the
memorandum of understanding (MOU) between ADF and the Kano State government.
One of the three officials identified left blank the line on the application that requested
salary amounts. Another applicant listed his occupation as a businessman and another
as a politician, which was clearly not allowed under the program targeting low-income
civil servants.

When the auditors asked how the houses had been advertised to the local community to
generate interest among low-income civil servants, the Kano State government
authorities were unable to provide any information. Some authorities admitted that even
though they were fully aware that the three government officials who were allocated
houses did not qualify for the program, they were in no position to refuse them the
houses for fear of losing their jobs. Kano State housing authorities explained that there
was considerable pressure from local politicians to allocate completed houses to
government officials.      One housing authority even argued that since the state
government was an equal partner in this project, it had the right to award the houses to
anyone it wished. Additionally, housing authorities emphasized that the tripartite
agreement among ADF, Kano State, and the grantees was never formalized and signed;
therefore it was not a valid document.

According to a review of the Kano State Housing Project by the law firm of Wali-Uwais &
Co., the director of administration at the Kano State Housing Authority admitted that two
or three of the houses in each of the local government areas were allocated to politicians
affiliated with the Kano State Housing Authority. Furthermore, the director believed that
it was fair for politicians to benefit from the project and also admitted that another three
individuals (mainly junior staff) were allocated houses. The review also revealed that the
houses were sold at a discount to officials and staff of the Kano State Housing Authority.
Contrary to the MOU, which established the cost at $5,333 per house, these individuals
purchased each house for $4,267, a 20 percent discount.

This situation occurred because the identification, review, and selection of beneficiaries
were entirely controlled by the Kano State government through its housing authority.
This process was not transparent, fully documented, or reviewed by other parties.
Neither ADF nor DDI had any input into how applicants were reviewed or selected.

Although DDI has informed ADF of these problems, corrective action has not been taken.
In June 2010, DDI recommended that ADF terminate the housing project owing to
unavailability of land to complete the remaining houses as well as noncompliance by the
Kano State government regarding the identification and selection of beneficiaries. This
recommendation followed the review by the law firm Wali-Uwais & Co. that revealed that
the Kano government was not complying with its mutually agreed-upon policy with ADF for
selecting beneficiaries and distributing houses. However, ADF evaluated the situation and
decided to proceed with the remaining houses because terminating the housing project
may negatively impact other projects implemented in Nigeria. Because the process for
identifying, reviewing, and selecting beneficiaries was not transparent, qualified
beneficiaries have not benefited from the project. Therefore, this audit makes the
following recommendations:




                                             6

    Recommendation 2. We recommend that the African Development Foundation,
    Kano State government, and the grantees formalize an agreement.

    Recommendation 3. We recommend that the African Development Foundation
    and Kano State government clearly delegate authority for selecting beneficiaries
    to both parties in writing.

    Recommendation 4. We recommend that the African Development Foundation,
    in conjunction with the Kano State Housing Authority, develop and implement a
    plan to ensure that the process for identifying beneficiaries is transparent.

    Recommendation 5. We recommend that the African Development Foundation,
    in conjunction with the Kano State Housing Authority, develop and implement a
    plan to allocate the remaining houses to eligible beneficiaries.

    Recommendation 6. We recommend that the African Development Foundation
    identify legally available options for remedying the current occupation of houses
    by ineligible beneficiaries and implement a remedy accordingly.

The Quality of Constructed
Houses Was Not Adequate
The memorandum of understanding signed by the Kano State government and ADF and
the tripartite agreement among the Kano State government, ADF, and the grantees
includes language for the development and construction of low-cost, high-quality rural
housing for civil servants and public service employees.

Although high-quality housing is required, the audit team noted several quality issues
with houses constructed by El Noor Ventures Ltd. in the village of Rimin Gado. All 12
houses had cracked walls, unplastered walls, visible moisture damage, and
nonfunctioning boreholes that could limit access to water. DDI also noted cracks in the
walls of some completed houses in its monitoring report. In addition, some houses were
constructed in locations that are not easily accessible to main roads.

A quantity surveyor1 hired by DDI noted several problems, including serious cracks in
the kitchen and toilet areas, a falling roof that had blown away, vandalized ventilation
pipes, and the collapse of an internal fence wall separating two units. The surveyor
concluded that the cracks and visible damage to the houses were signs of structural
failure in the foundation due to poor soil characteristics. The surveyor also noted that
the materials used for construction were not adequate. For example, poor cement
quality resulted from using too much sand and not enough cement in the mixture, which
compromised the quality of the houses. ADF management asserted that the houses
have passed inspection. However, despite many requests for these reports, ADF was
not able to provide them at the time of the audit.


1
  Quantity surveyors control construction costs through (1) accurate measurement of the work
required; (2) the application of expert knowledge of costs and prices of work, labor, materials, and
plant required; and (3) an understanding of the implications of design decisions at an early stage
to ensure that good value is obtained for the money to be expended.


                                                 7

Although DDI agreed that the soil was unacceptable for construction, it did not
participate in the land selection process, and it did not have the authority to inspect the
land where the houses were built prior to construction because the MOU delegated that
authority only to the Kano State government. ADF agrees that initial assessments
should have been conducted to prevent such problems, and although ADF generally
conducts environmental assessments for all its projects, it did not do so for this project.

A Kano State Housing official stated that although the state was responsible for
overseeing the housing construction, it was difficult for the state to exert power over the
grantees since the grantees viewed ADF as the primary donor. Therefore, all
recommendations made by experts from Kano State to the grantees on the quality of the
houses and necessary improvements in the quality of the houses were ignored by the
grantees. According to Kano State Housing Authority, there was a lack of accountability
by ADF grantees.

The chief executive officer of El Noor Ventures Limited admitted that his organization
could have performed a better job of constructing the houses but attributes many of the
problems encountered to delays in securing land for the project, which compressed the
time available to complete construction. In addition, the lack of adequate funding for
house construction required him to cut corners in building the houses. He believed that
funding provided by ADF for the houses was not adequate to build the quality of houses
the project was seeking. For houses completed, he added that more work is needed to
ensure that they are structurally safe and can withstand harsh weather conditions.

Additionally, the housing project did not use the interlocking brick technology proposed
in the agreements with grantees. When the low-cost housing projects in Kano State
were conceived, they were meant to be modeled after a similar project in Jigawa State
that used interlocking blocks rather than a sand and concrete mixture construction
technique. According to an ADF report, this concept would have reduced cement use by
up to 50 percent, reduced costs, and allowed local artisans to learn a new construction
technique. The procurement of the brick-making machine was the responsibility of the
Kano State government, but it failed to buy the right equipment. Consequently, this
more cost-effective, environmentally friendly construction technique was not introduced
to the people of Kano State. This led to an estimated 28 percent reduction in the
number of houses built, even though the total cost increased by 33 percent (partly
because materials used to make cement blocks were not readily available locally).
Moreover, since this technique was never used, local artisans could not learn of its
advantages or gain new skills.

Consequently, poor-quality homes were built that may not be able to withstand harsh
weather conditions. To ensure that ADF’s housing quality issues are adequately
addressed, this audit makes the following recommendations:

   Recommendation 7. We recommend that the African Development Foundation,
   in conjunction with the Kano State Housing Authority, modify the memorandum of
   understanding to include joint efforts in assessing the suitability of land used for
   construction of future houses.

   Recommendation 8. We recommend that the African Development Foundation
   develop and implement a plan to require that an environmental assessment and
   preliminary soil quality studies be conducted for future construction sites.


                                            8

   Recommendation 9. We recommend that the African Development Foundation
   develop a plan of action for obtaining and documenting inspection certificates for
   all completed houses.

   Recommendation 10.          We recommend that the African Development
   Foundation establish a plan to ensure that the construction budget for all phases
   of construction meets acceptable standards within the allocated budget.

   Recommendation 11.         We recommend that the African Development
   Foundation review the work of all grantees and ensure that poor-performing
   grantees are not awarded grants in subsequent phases of the project.

Activity Monitoring by
ADF and DDI Was
Not Adequate

ADF Manual Section 630 requires that partner organizations provide in-country technical
assistance to grantees to ensure that projects are proceeding according to plan and are
achieving the objectives of the grant, and to assist grantees in identifying and addressing
issues that arise during project implementation. Moreover, site visits are an essential
part of providing management support and technical assistance, and Section 630
requires that during site visits, partner staff review the grantees’ maintenance, use, and
management of their project documentation and data collection systems. No fixed
schedule is prescribed for site visits as they will necessarily depend on the status of the
projects; however, partners are expected to visit grantees at least quarterly during the
first year of the project and no less than once annually thereafter. Every site visit will be
documented in a site visit report and attached to the partner’s monthly report.

In defining the role of ADF’s country program coordinator, Section 630 states that the
CPC is primarily responsible for monitoring the work of the partner organization to
determine if timely, appropriate, and effective management support services and
technical assistance are being provided to grantees. Furthermore, Section 630 assigns
responsibility to the CPC to independently assess the work of the partner organization to
ensure that grantees are receiving timely and effective technical assistance and support
services that the partner is expected to provide. However, the audit determined that
several grantee projects (described below) were not proceeding according to plan, which
may negatively impact program achievement:

Metalworking and Tailoring Sector: Physically Handicapped Association of
Nigeria (PHAN) Kano Project – PHAN’s agreement established a goal of training 300
members of the association, but the audit team was unable to confirm that this training
had occurred because neither the grantee nor DDI maintained any training records.
Project PHAN was also to establish a revolving loan fund for its members, but the audit
noted that the association had not established this fund. DDI did not adequately monitor
the grantee to ensure that the objectives of the grant were achieved.

Sorghum Production and Processing: Da All Green Seeds Limited Project – The
grantee was required to obtain three comparable price quotes from vendors for all



                                             9

purchases over $3,000 (to ensure that costs were kept low); however, the grantee was
not able to provide documentation to support open competition for $30,000 worth of
seeds it had purchased. In addition, sorghum grains were purchased from the farmers
at a higher price than the project could resell them in the open market. This resulted in a
significant decrease in the grantee’s annual revenue, although the production volume of
sorghum seeds had increased. The grantee’s annual revenue target for Year 1, which
started in July 2009, was 78.2 million naira ($517,881), but the grantee had only reached
6.5 million naira ($43,046) as of March 31, 2010. At the same time, production volume
of sorghum seeds reached 34 metric tons, surpassing the target of 25 metric tons. DDI
did not ensure that the prices of goods sold and purchased by the grantee were
reasonable to achieve maximum benefit. Moreover, the grantee stated that this situation
could be repeated if appropriate measures were not taken. The grantee failed to meet
several targets and indicators, and DDI has not assisted the grantee in addressing these
problems to ensure that grant objectives will be achieved.

Fruit Production and Processing: NIYYA Food and Drink Company Ltd. – The goal
of the project was to improve the living standards of private sector workers who
produced fresh fruit juices and fruit suppliers in the Kaduna region of Nigeria, and to
increase income of NIYYA, its employees, and fresh fruit suppliers in the Kaduna area.
To achieve these goals, NIYYA Food and Drink Company Ltd. were to conduct market
research to better understand Nigerian consumers’ attitudes toward its products and to
improve its distribution strategy. NIYYA officials considered the market research study
to be a key element in NIYYA’s future growth. Also, NIYYA was to develop a strategic
growth plan to enable it to realize its vision of becoming a significant national competitor
in the fruit juice market in Nigeria. NIYYA was to purchase (with its own funds) an
orange juice oil extractor that would separate the oil from the juice, thereby improving
the quality of its juices.

However, NIYYA did not conduct the market research because ADF had not provided
sufficient funding for the level of research NIYYA was seeking. Furthermore, NIYYA did
not purchase the oil extractor because it encountered problems in generating funds for
this purchase. NIYYA officials indicated that sales have not progressed, and its capacity
utilization has remained flat at 30 percent since it began its project with ADF in 2007.
DDI has not proactively assisted NIYYA to overcome these challenges.

Rice Production and Processing: Danhassan Fadama Farmers Cooperative
Society – The project called for the utilization of 30 hectares of land for rice production
and processing. However, the grantee was able to secure only 15 hectares (although
60 percent of total project funding has already been disbursed to the grantee) and
received no assistance from DDI in securing additional land. The grantee purchased
fertilizer and rice seeds for 30 hectares of land, resulting in excess fertilizers and rice
seeds. Upon verification of the physical items, the audit team noted discrepancies with
the stock cards maintained by the grantee. For example, stock cards showed 30 bags of
rice seeds, but the audit team was unable to verify this amount. The stock cards also
contained no review or verification by DDI officials. Although the grantee noted that DDI
made more than 20 visits to the project, DDI officials did not document all of these visits.

Food and Beverage Catering: Children’s Developmental Centre – The centre did
not meet several of its goals. For example, the centre did not provide training on event
management and budgeting as it had intended because it was later determined that



                                            10 

these trainings were not appropriate for the project. DDI did not assist the centre in
revising its targets and goals.

The audit also found that the centre deposited funds into the petty cash account to
facilitate the payment of certain large items. This, however, was contrary to the ADF
manual, which stated that “Cash payments should be for small amounts and there
should be few of them.” For example, checks for the purchase of tea equipment were
written to an employee rather than the supplier (the team noted two transactions in
which the payments amounted to 630,000 naira ($4,172) and 595,494 naira ($3,944),
respectively. The centre’s officials explained that some suppliers did not accept checks;
therefore, an employee would accept the check on its behalf and pay the supplier. DDI’s
officials never noted this practice during their monitoring visits. Although the audit team
was able to verify the existence of the equipment, this practice is an example of weak
internal controls over procurement actions and a lack of oversight.

The condition described above occurred primarily because DDI had not provided
adequate assistance to grantees. Also, DDI and ADF had not provided adequate
oversight of project activities. For example, although there were 39 active projects in
Nigeria, DDI’s monitoring plan included only 29 projects. Furthermore, its monitoring
plan did not specify when site visits would be conducted or the types of information that
would be verified or provided during these site visits.

There was a lack of day-to-day oversight of DDI’s and grantees’ activities by the ADF
representative in Nigeria. DDI’s officials confirmed that it interfaced directly with ADF
officials in Washington, DC, rather than the ADF CPC in Nigeria. The CPC, who was
hired 4 months before the audit started, explained that although he meets with DDI
officials for program discussions, there is no language in his job description that gives
him the authority to effectively assess the work of DDI to ensure that grantees are
receiving timely and effective technical assistance and support services that the partner
is expected to provide. Furthermore, although both DDI and the CPC performed site
visits, there was no coordination of monitoring duties.

As a result, some programs have encountered problems that may prevent them from
achieving their goals. To correct these issues, this audit makes the following
recommendations:

   Recommendation 12.           We recommend that the African Development
   Foundation in coordination with the Diamond Development Initiatives, develop
   and implement a plan of action to address the needs of its grantees to ensure
   that grantee project goals are achieved.

   Recommendation 13.              We recommend that the African Development
   Foundation require the Diamond Development Initiatives to submit a
   comprehensive monitoring plan that includes all projects, site visit coordination
   efforts, a site visit schedule, and a site visit template.

   Recommendation 14.           We recommend that the African Development
   Foundation amend its country program coordinator’s job description to include all
   oversight responsibilities over the Diamond Development Initiatives, including
   evaluating its work on a biannual basis.



                                            11 

Branding and Marking
Policy Needed

Ensuring that the American people are appropriately recognized for their generosity in
funding U.S. foreign assistance has been a long-standing U.S. Government objective.
However, ADF does not have a branding and marking policy that adequately identifies the
assistance made by the American people. The audit team observed the following
instances where program activities were not properly marked or identified as American aid.

   1. 	Although ADF was the largest donor to the Children’s Developmental Centre,
       there were no signs, markings, or logos that identified ADF as a donor.
       Meanwhile, another donor’s signs and logos were prominently displayed at the
       centre’s playground.

   2. 	 None of the seven villagers interviewed at the housing project site in the village
        of Kunchi were aware that the houses built in their community were provided by
        ADF or the American people.

   3. 	 At the tailoring and metal workshops of the Physically Handicapped Association
        of Nigeria, none of the items procured with ADF funding—the sewing machines,
        generators, office furniture, or welding tools—were appropriately branded with
        ADF logos and markings.

   4. 	At the rice farm visited in the village of Danhassan, there were no signs
       appropriately identifying the project. The villagers and farmers interviewed
       created their own signs to promote the project.

   5. 	 At the headquarters of NIYYA Food and Drink Company and Da All Green Seeds
        Limited, there was no evidence of ADF sponsorship, although both grantees will
        receive combined funding of $488,930.

These omissions are attributed to the lack of an approved branding implementation plan
and the failure of ADF to address the problem. DDI officials and the CPC were very
open to the idea of a branding and marking policy to guide them in ensuring appropriate
branding of programs in Nigeria and to ensure that ADF is given the appropriate credit.

The president of ADF has identified the need for programs to be appropriately branded
and has encouraged projects to do so where possible, but there is no comprehensive
policy to guide personnel. Without an adequate policy to address this problem, the risk
exists that the objectives of furthering U.S. foreign policy in Nigeria will not be achieved
and that neither the U.S. Government nor the American people will receive credit for
providing public resources in Nigeria and other countries in Africa where ADF operates.
In addition, branding developed by projects without the supervision and approval of ADF
may be inappropriate. This audit makes the following recommendation.

   Recommendation 15.          We recommend that the African Development
   Foundation develop and approve a branding and marking policy for its programs
   and take the necessary steps to ensure that the policy is implemented and
   adhered to by its programs in Nigeria.



                                            12 

EVALUATION OF
MANAGEMENT COMMENTS
ADF agreed with most of the recommendations in the draft report. In preparing the final
report, the Regional Inspector General/Dakar (RIG/Dakar) considered management’s
comments and clarified its position for the recommendations with which ADF did not
agree. In particular, RIG/Dakar revised the report to reflect changes and clarifications
suggested by management in appendix 2 of its comments to the draft report. However,
although management argued that certification of construction of the houses was
completed and the PHAN project provided training and established the loan fund (points
3 and 4 on page 26), RIG/Dakar did not receive any documentation to support these
claims during the audit. Furthermore, on the basis of management’s comments, we
have deleted one recommendation (recommendation 2 in the draft report), and
renumbered the recommendations accordingly.

For Recommendation 1, ADF agreed with the recommendation and will work with DDI
to develop a plan and budget by April 15, 2011, for grantees to complete the remaining
houses.     Accordingly, a management decision has been reached for this
recommendation.

For Recommendation 2, ADF agreed with the recommendation and will enter into a
bilateral agreement with the Kano State government, which will include issues of land
donation, project site suitability, selection of beneficiaries, selection criteria, and
construction quality by April 30, 2011. Since the new agreement will be a bilateral
agreement rather than the tripartite agreement mentioned in the recommendation, we
have clarified this in the recommendation. A management decision has been reached
for this recommendation.

For Recommendation 3, ADF agreed with the recommendation and will enter into a
bilateral agreement with the Kano State government, which will include delegating
authority for selecting beneficiaries by April 15, 2011. Accordingly, a management
decision has been reached for this recommendation.

For Recommendation 4, ADF agreed with the recommendation and will enter into a
bilateral agreement with the Kano State government, which will include a transparent
process for identifying beneficiaries by April 15, 2011. Accordingly, a management
decision has been reached for this recommendation.

For Recommendation 5, ADF agreed with the recommendation and will enter into a
bilateral agreement with the Kano State government, which will include steps to allocate
the remaining houses to eligible beneficiaries by April 15, 2011. Accordingly, a
management decision has been reached for this recommendation.

For Recommendation 6, ADF disagreed with the recommendation, stating that it cannot
legally repossess the houses. However, RIG/Dakar emphasizes that these houses are
occupied by ineligible beneficiaries, and it is necessary for ADF to take appropriate action to
address this situation. The recommendation has been revised to indicate this statement. A



                                              13 

management decision can be recorded when ADF and RIG/Dakar agree on a firm plan of
action, with target dates, for implementing the recommendation.

For Recommendation 7, ADF agreed with the recommendation and will enter into a
bilateral agreement with the Kano State government, which will include procedures for
assessing the suitability of land used for construction of future houses, by April 15, 2011.
Accordingly, a management decision has been reached for this recommendation.

For Recommendation 8, ADF agreed with the recommendation and will enter into a
bilateral agreement with the Kano State government, which will include the requirement
that an environmental assessment and preliminary soil quantity studies are conducted
for future construction sites, by April 15, 2011. Accordingly, a management decision has
been reached for this recommendation.

For Recommendation 9, ADF disagreed with the recommendation, stating that the
houses passed inspection. However, RIG/Dakar requested inspection reports but were
not provided with any. The only reports provided to the auditors were reports prepared
by the surveyor in which several recommendations were made to repair the houses, but
no documentation was provided to indicate whether these recommendations were
implemented. We have revised the recommendation based on management comments.
A management decision can be recorded when ADF and RIG/Dakar agree on a firm plan of
action, with target dates, for implementing the recommendation.

For Recommendation 10, ADF agreed with the recommendation and will enter into a
bilateral agreement with the Kano State government, which will ensure that the
construction budget meets acceptable standards, by April 15, 2011. Accordingly, a
management decision has been reached for this recommendation.

For Recommendation 11, ADF agreed with the recommendation.                   Future
disbursements will be withheld from underperforming grantees. The target date for
completion of this action is April 15, 2011. Accordingly, a management decision has
been reached for this recommendation.

For Recommendation 12, ADF agreed with the recommendation and will develop
remediation plans for grantees as part of the biannual performance review. The target
date for this action is April 15, 2011. Accordingly, a management decision has been
reached for this recommendation.

For Recommendation 13, ADF agreed with the recommendation and has updated a
new monitoring plan to be shared with RIG/Dakar by February 15, 2011. Accordingly, a
management decision has been reached for this recommendation.

For Recommendation 14, ADF disagreed with the recommendation but will provide
RIG/Dakar with a copy of the CPC’s statement of work, which will detail the CPC’s
oversight responsibilities. The target date for this action is February 15, 2011.
Accordingly, a management decision has been reached for this recommendation.

For Recommendation 15, ADF agreed with the recommendation and will develop and
approve a branding policy for its programs. The target date for completion of this action
is April 15, 2011. Accordingly, a management decision has been reached for this
recommendation.


                                            14 

                                                                             Appendix I



SCOPE AND METHODOLOGY

Scope

We conducted this audit in accordance with generally accepted government auditing
standards.2 Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.

The purpose of this audit was to determine whether the United States African
Development Foundation in Nigeria (ADF/Nigeria) implemented and monitored its
activities in accordance with required policies and regulations to ensure that project
objectives were achieved.

ADF implements its programs in six states in Nigeria through its partner organization
Diamond Development Initiatives (DDI) and has 39 active projects in economic and
social sectors of Nigeria as of May 2010. Funding for the 39 grants was $5,043,736,
excluding the cooperative agreement with DDI, which amounts to $376,593. The audit
focused on 10 grants in several economic and social sectors totaling $1,788,674. The
audit scope covered the period from 2007 to 2009, which included phase 2 of the
construction projects. The 10 grants were judgmentally selected based on the amount,
nature, the economic and social sector, and geographic location of the projects to
ensure that our audit covered various types of activities and sites that are less
susceptible to visits because of their remoteness.

In planning and performing this audit, the Regional Inspector General/Dakar (RIG/Dakar)
obtained an understanding of and assessed relevant controls used by ADF/Nigeria to
manage its projects and ensure that its partner was providing adequate oversight of
project activities. Specifically, we reviewed and evaluated the following:

         Implementing partner agreements

         Implementing partner’s monitoring plans

         Grantees’ financial reports

         Grantees’ progress reports

         Grantees’ performance plans

Audit fieldwork was performed at ADF/Nigeria and DDI’s offices in Nigeria as well as
field trips to 10 project sites in Kano State, Kaduna State, and Lagos from September 27
to October 15, 2010.


2
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                              15 

                                                                                Appendix I


Methodology
To answer the audit objective, we interviewed the ADF regional program director,
country program coordinator, and internal auditor, as well as DDI, the partner
organization responsible for providing technical assistance and monitoring oversight of
ADF projects.    We reviewed applicable ADF policy documents, including grant
documents, budgets, general program documents, and grantees’ progress reports. We
also reviewed DDI’s site visit reports, bank reconciliation statements, and financial audit
reports. For selected housing projects, we interviewed the Kano State Housing
Authority.

At the 10 grantee project sites visited, we observed the projects’ operations and
interviewed grantee representatives. We tested data included in the grantees’ progress
reports by comparing reported information with supporting documentation such as
invoices, payroll records, general ledgers, and other source documents for selected
performance results or indicators.

Since our testing was based on a judgmental rather than a statistical sample of
performance results and sites, the results and overall conclusions related to this analysis
were limited to the items tested and could not be projected to the entire audit universe.
However, we believe that our work provides a reasonable basis for our conclusions.




                                            16 

                                                                                      Appendix II




MANAGEMENT COMMENTS

January 14, 2011


Gerard Custer, Director
Regional Inspector General
U.S. Agency for International Development
Ngor Diarama
Petit Ngor, BP 49
Dakar, Senegal


Dear Mr. Custer:

Thank you for your transmission note of December 15, 2010 and the copy of the Draft Audit of
the African Development Foundation’s Activities in Nigeria. We appreciate the opportunity to
comment on the report (Audit Report No. 7-ADF-11-00X-P), its findings and recommendations.

As you know, the African Development Foundation has changed considerably during the period
of time covered by this audit report 2007 - 2011. Of the ten projects selected for review, six were
selected, planned and initiated prior to the arrival of new leadership at the Foundation. Of these
six, four, constituting 10 percent of the current Nigeria program, pertain to a housing program
which was initiated in 2004. The Foundation no longer funds housing grants of this type. The
remaining four projects initiated in 2009 are not completed projects at this time.

Foundation Management has found considerable value in the findings and recommendations of
prior OIG/USAID audit reports in helping us to reform and focus the Foundation on project and
program results, performance and improved program oversight. During 2009, several sections of
the ADF Manual were drafted or redrafted and approved including:
    1. Section 603, Project Development, June 10, 2009
    2. Section 631, Grantee Reporting, October 19, 2009
    3. Section 630, Project Quality Assurance, October 22, 2009
    4. Section 633, ADF Grant Closeout, December 10, 2009

These new sections made substantial improvements clearly defining roles and responsibilities for
all actors in ADF program processes. Included are the adjustments made related to
Management’s 2009 fundamental staffing profile change for the Country Program Coordinator
offices and their roles and responsibilities. These changes were in part to achieve significant
operating expense savings as desired by the Office of Management and Budget, the Congress and
the Board of Directors of the Foundation. Implementation of these new manual sections
continues throughout the Agency. Additional programmatic efficiencies and improved
performance standards have been included in the ADF Congressional Budget Justification
documents for FY2009 – 2011, which are available on our website.

In summary, the draft Nigeria Audit has five findings which have a total of 16 related



                                                  17

                                                                                      Appendix II


recommendations. The first three findings relate to the four selected housing projects and relate
to 12 of the total 16 recommendations. The three housing-related findings are titled:
         1. Housing Construction Was Delayed
         2. Low-Income Houses Were Not Occupied by Eligible Beneficiaries
         3. Quality of Constructed Houses Was Not Adequate

The fourth finding has three related recommendations (Numbered 13 – 15) and is titled:
       4. Activity Monitoring by ADF and DDI Was Not Adequate

The fifth finding with one recommendation is titled:
        5. Branding and Marking Policy is Needed

In general, the Foundation agrees with the five findings albeit it would like adjustment of the
wording of the fourth finding. Of the related 16 recommendations, the Foundation agrees with 13
of the 16 recommendations. Of the 13, ADF agrees with eight as drafted, with three in part and
another two with clarification.

Addressing the findings in reverse order, the Foundation agrees with the finding on branding and
marking. Despite not being a Foreign Assistance Act agency and thus not being legally required
to “brand” its projects publically identifying the source of their funding, ADF long has acted in
accord with the sentiments of the legislation and ADF marks its projects in a variety of ways so
that its contribution is publically acknowledged. It is a rare event if in visiting an ADF project
one does not encounter a quite visible sign of one sort or another clearly using the ADF logo
and/or noting the ADF contribution. Most pieces of large equipment purchased with ADF funds
also have signage and ADF asset identification markings. The Foundation agrees that a formal
written policy should be developed and work on developing a branding and marking policy is
currently underway.

Concerning the fourth finding, which relates to Activity Monitoring, the Foundation requests that
consideration be given to returning the current draft statement to the earlier version that was
shared with Foundation staff at the time of the in-country audit Exit Conference. At that time, the
draft audit finding was stated as: “Activity Monitoring by USADF/Nigeria’s Partner (DDI)
Could Be Improved”. We believe that this language is accurate and reflects the changing
circumstances in terms of the improved ADF policy environment and the changing roles and
responsibilities of the various program participants. The audit write up repeatedly cites ADF
Manual Section 630, Project Quality Assurance, and then applies that standard to various projects
which were initiated at earlier points in time including in 2007. This manual section was
approved October 22, 2009. Development and implementation of new manual sections does not
occur overnight and is continuing today. Applying new standards and roles and responsibilities
to past actions to draw conclusions should be avoided. The Foundation believes that the level of
partner oversight that seemingly is called for by the audit language would not be simple to
accomplish in a Western country and is beyond what is required by current Foundation policy or
what is reasonably possible in a program in Sub-Sahara Africa with a wide dispersion of projects
within countries and a lack of unlimited resources for monitoring and oversight.

With the OIG, the Foundation is in agreement that there is a continuing need to improve services
to grantees, monitoring of grantees, performance of partners, and oversight of partners. This need
has been recognized for some time and is at the heart of the manual and program changes adopted
in recent years. Indeed, these changes focus the work of the Country Program Coordinator on
oversight of the performance of the Partner and a Partner Performance measurement tool has been


                                                18 

                                                                                        Appendix II


developed. The Foundation, however, finds the extent of the audit recommendations and
expectations at times to be somewhat unrealistic. A reasonable balance needs to be struck
between the size of the individual grants and the costs involved in providing program support and
program and financial oversight of those same grants. At times, the audit report language seems
to imply the need for very frequent on site presence and oversight of grantees by the country-
based partner and country program coordinator and by the Washington, D.C.-based regional
program directors and their program assistants – and of the partner by the country program
coordinator.

Regarding the housing-related three findings and 12 recommendations, it is necessary to note that
ADF has long been aware of the problems in the Nigeria Kano State housing projects. ADF
agrees with the three findings and with eight of the 12 recommendations. ADF agrees partially
with two of the recommendations (Numbers 1 & 3) and disagrees with two (Numbers 7 & 10).
While this audit report happened to select four of these construction projects, there are in fact
seven related housing projects in Kano State dating from 2007. The original MOU was signed in
2004 and there were some projects at that time. The knowledge of these problems with the
particular 2007 projects has led to repeated high level ADF visits by the Regional Program
Director, by the President of the Foundation and by members of the Board of Directors, including
the Chairman of the Audit Committee. Concurrently, the President, Management, and the Board
take these issues and concerns very seriously, and have worked on a regular basis to facilitate the
completion of the housing projects and the phasing out of this program. Most of the various
problems related to these projects relate to fundamental errors, short-comings and misjudgments
related to the original grant agreements with construction companies and the agreements with the
Kano State Government and the Housing Authority. These documents and understandings were
not well set up with appropriate foresight of the multitude of complex problems that could arise.
As well, resolution of the housing issues raised in this audit report is complicated by the fact that
the grant funds supporting these projects are 50 percent financed from the Kano State government
funds which were specifically provided for these projects. The Foundation agrees with the
findings, but in detail of Appendix One attached to this letter you can see where the Foundation is
not in full agreement with specific proposed audit recommendations.

It is important to note that, while the Foundation to date has been unwilling to end these projects,
the Foundation has not repeated these mistakes. No new housing projects have been initiated
since 2007 and the Foundation has focused its core mission on income generation projects for
marginalized community groups, mostly in the agriculture sector and more and more in remote
areas or with groups which are not served by traditional development assistance programs. These
adjustments mean that in addition to not pursuing new housing projects since this period, the
Foundation will not be financing them in the future. Additionally since this period, projects
financed in Kano State (including those financed in part with local funds) which depend upon the
involvement of the government and upon additional government decision-making during
implementation have not been initiated. There is no expectation that housing projects with this
complex mix of grantee, partner, local government and Foundation responsibilities will be
repeated in the future. In short, the Foundation has learned some difficult lessons from its work
in the Kano State housing sector and since 2007 has moved on in other directions, even while
continuing to work on correcting the problems with these projects via on-going negotiations with
the Kano State Government. Resolution of these issues is being worked on through negotiation
of a “program implementation letter” (PIL) that would effectively amend the initial program
documents. Once the PIL is agreed, the focus will be on satisfactory implementation. Significant
progress is being made in these negotiations.

Thank you for all the hard work and insights that the report provides. The Foundation appreciates


                                                 19 

                                                                                     Appendix II


and largely agrees with the broad conclusions. Attached are two appendices: the first appendix is 

a matrix of the five findings and 16 recommendations, the ADF response, the proposed corrective 

actions and the proposed completion dates for those actions; the second appendix is a listing of 

page and line specific program comments which in part address factual matters. 


The Foundation’s management and Board of Directors remain committed to improving program

effectiveness and operational efficiencies to advance ADF’s unique approach to achieving 

sustainable development results for marginalized communities in Africa. 


Sincerely,



Lloyd O. Pierson /s/ 

President and Chief Executive Officer 



Attachments




                                               20 

                                                                                       Appendix II



                                       IG NIGERIA AUDIT
                                     AUDIT REPORT NO. 7-ADF-11-00X-P

No.   OIG Recommendation              ADF’s Response                  Corrective Action(s)           Corrective
                                                                                                     Action
                                                                                                     Completion
                                                                                                     Date
Section 1: FINDINGS ON KANO HOUSING PROJECTS (Recommendations 1-12)
1a:     HOUSING CONSTRUCTION WAS DELAYED
1       We recommend that the African         Agree, in part.
                                                            ADF, in conjunction with                 April 15, 2011
        Development Foundation develop and                  DDI, will develop a plan and
        implement a plan with a timeline for                budget for grantees to
        obtaining donated land and completing               complete the remaining houses
        the remaining 66 houses.                            within the finances remaining.
                                                            The plan will include a
                                                            timeline for obtaining land
                                                            donated by KSHC, an
                                                            appropriate environmental
                                                            survey conducted, a revised
                                                            building schedule, a quality
                                                            assessment for each building,
                                                            and a transparent process for
                                                            identifying, selecting and
                                                            allocating housing recipients.
2     We recommend that the African         Agree, in part. ADF has determined it is not
      Development Foundation develop and                    necessary to develop a plan
      implement a plan to ensure that all                   because, since 2008, ADF has
      future agreements with host country                   implemented a program
      governments are specific about when                   strategy that does not involve
      and where land will be provided prior                 any new housing projects that
      to construction.                                      contain a contribution by the
                                                            host government of land or
                                                            other non-monetary property.
                                                            In addition, ADF’s program
                                                            guidelines require a
                                                            prospective grantee to secure a
                                                            right to the construction site
                                                            before the Agency will fund
                                                            the construction.
1b:   LOW-INCOME HOUSES NOT OCCUPIED BY ELIGIBLE BENEFICIARIES
3     We recommend that the African         Agree, in part. ADF will enter into a bilateral          April 30, 2011
      Development Foundation, Kano State                    agreement with Kano State
      government and the grantees formalize                 Government, in the form of a
      the tripartite agreement.                             Program Implementation
                                                            Letter (PIL) to the Sept. 24,
                                                            2004, MOU, that covers the
                                                            issues of land donation,
                                                            project site suitability,
                                                            selection of beneficiaries,
                                                            selection criteria, and
                                                            construction quality assurance.
4     We recommend that the African         Agree.          The PIL referenced in 3                  April 15, 2011
      Development Foundation and Kano                       above, in Corrective Action(s),
      State government clearly delegate                     will include delegating



                                                  21 

                                                                                                         Appendix II


No.   OIG Recommendation                         ADF’s Response                        Corrective Action(s)             Corrective
                                                                                                                        Action
                                                                                                                        Completion
                                                                                                                        Date
      authority for selecting beneficiaries to                                         authority for selecting
      both parties in writing.                                                         beneficiaries.
5     We recommend that the African              Agree.                                The PIL referenced in 3 above    April 15, 2011
      Development Foundation, in                                                       will include a transparent
      conjunction with the Kano State                                                  process for identifying
      Housing Authority, develop and                                                   beneficiaries.
      implement a plan to ensure that the
      process for identifying beneficiaries is
      transparent.
6     We recommend that the African              Agree.                                The plan referenced in 1 above   April 15, 2011
      Development Foundation, in                                                       will include steps to allocate
      conjunction with the Kano State                                                  the remaining houses to
      Housing Authority, develop and                                                   eligible beneficiaries.
      implement a plan to allocate the
      remaining houses to eligible
      beneficiaries.
7     We recommend that the African             Disagree. Legally, ADF lacks the
      Development Foundation, in                ability to repossess the houses or
      conjunction with the Kano State           insist that the Kano State Housing
      Housing Authority, repossess houses or    Authority repossess them. Since
      obtain appropriate enumeration [sic]      the grantees constructed the houses
      from ineligible beneficiaries.            with their grant funds, they are the
                                                legal owners of the houses, while
                                                the Kano State Government is the
                                                legal owner of the land. Once a
                                                house is allocated, the beneficiary
                                                gains absolute title to the property
                                                under Nigerian law.
1c:   THE QUALITY OF CONSTRUCTED HOUSES WAS NOT ADEQUATE
8     We recommend that the African             Agree.                                 The PIL referenced in 3 above    April 15, 2011
      Development Foundation, in                                                       will include, inter alia,
      conjunction with the Kano State                                                  procedures for assessing the
      Housing Authority, modify the                                                    suitability of land used for
      memorandum of understanding to                                                   construction of future houses,
      include joint efforts in assessing the                                           involving representatives from
      suitability of land used for construction                                        KSHC and ADF’s partner,
      of future houses.                                                                DDI.
9     We recommend that the African             Agree.                                 The plan referenced in 1 above   April 15, 2011
      Development Foundation develop and                                               will include the requirement
      implement a plan to require that an                                              that an environmental
      environmental assessment and                                                     assessment and preliminary
      preliminary soil quality studies are                                             soil quality studies are
      conducted for future construction sites.                                         conducted for future
                                                                                       construction sites.
10    We recommend that the African              Disagree. With one exception, the
      Development Foundation perform a           houses passed inspection, which
      quality-control assessment of all          satisfied the requirements of the
      constructed houses and perform any         grant. The ADF grants did not
      necessary repairs.                         provide for maintenance of houses
                                                 after they passed inspection. In
                                                 addition, each of the grants was



                                                               22 

                                                                                                         Appendix II


No.     OIG Recommendation                       ADF’s Response                        Corrective Action(s)              Corrective
                                                                                                                         Action
                                                                                                                         Completion
                                                                                                                         Date
                                                 funded at the statutory ceiling for
                                                 an individual ADF grant, i.e.,
                                                 $250,000. Waiver of this ceiling is
                                                 possible only in extraordinary
                                                 circumstances, which are not
                                                 warranted in this instance.
11      We recommend that the African            Agree.                                The plan referenced in 1 above    April 15, 2011
        Development Foundation establish a                                             will ensure that the
        plan to ensure that the construction                                           construction budget for all
        budget for all phases of construction                                          phases of construction meet
        meet acceptable standards within the                                           acceptable standards within
        allocated budget.                                                              the allocated budget.
12      We recommend that the African            Agree.                                As a part of the normal grant     April 15, 2011
        Development Foundation review the                                              disbursement process, ADF
        work of all grantees and ensure that                                           carefully reviews a
        poor performing grantees are not                                               disbursement request to ensure
        awarded grants in subsequent phases of                                         the grantee is in compliance
        the project.                                                                   with the terms of the grant and
                                                                                       achieving appropriate
                                                                                       performance levels. Future
                                                                                       disbursements are withheld
                                                                                       from under-performing
                                                                                       grantees. ADF intends to
                                                                                       disburse remaining funds to
                                                                                       certain performing grantees to
                                                                                       build the remaining houses as
                                                                                       funds are available.

                                                                            ADF’s policy on closeouts
                                                                            requires that reports be written
                                                                            on the financial and
                                                                            programmatic aspects of ADF
                                                                            projects, and that these reports
                                                                            be used to inform the decision
                                                                            to award future grants. It is
                                                                            not the intention of ADF to
                                                                            award subsequent grants to
                                                                            current Kano Housing Project
                                                                            grantees.
Section 2: FINDINGS ON ACTIVITY MONITORING BY ADF AND DDI (Recommendations 13-15)
13      We recommend that the African            Agree                      As a part of the bi-annual                   April 15, 2011
        Development Foundation in                                           performance review, ADF and
        coordination with the Diamond                                       its Partner Organizations
        Development Initiatives develop and                                 develop remediation plans for
        implement a plan of action to address                               grantees’ performance below
        the needs of its grantees to ensure that                            specified levels.
        grantee project goals are achieved.
14      We recommend that the African            Agree, with clarification. The monitoring plan referred                 February 15,
        Development Foundation require the                                  to in the Audit Report was                   2011
        Diamond Development Initiatives to                                  done in January 2010 when
        submit comprehensive monitoring that                                there were only 30 active
        includes all projects, site visit                                   Nigeria projects. The plan has


                                                                23 

                                                                                               Appendix II


No.    OIG Recommendation                           ADF’s Response           Corrective Action(s)               Corrective
                                                                                                                Action
                                                                                                                Completion
                                                                                                                Date
       coordination efforts, site visit schedule,                            been updated since then to
       and a site visit template.                                            include all current projects in
                                                                             Nigeria and will be provided
                                                                             to the OIG.
15     We recommend that the African                Disagree.                The current Statement of           February 15,
       Development Foundation amend its                                      Work in the CPC contract           2011
       country program coordinator’s job                                     already requires that CPCs
       description to include all oversight                                  “report to the RPD on the
       responsibilities over the Diamond                                     effectiveness of the in-country
       Development Initiatives, including                                    Partner’s support of grantees”
       evaluating their work on a biannual                                   and that CPCs provide “bi-
       basis.                                                                annual assessments of the
                                                                             partner’s performance.” ADF
                                                                             will submit a copy of the
                                                                             Nigeria CPC’s statement of
                                                                             work to the OIG.
Section 3: FINDING ON MARKING AND BRANDING (Recommendation 16)
16      We recommend that the African           Agree, with clarification.   While ADF programs do not         April 15, 2011
        Development Foundation develop and                                   fall under Section 641 of the
        approve a branding and marking policy                                Foreign Assistance Act of
        for its programs and take the necessary                              1961 with respect to the
        steps to ensure that the policy is                                   requirement for branding and
        implemented and adhered to by its                                    marking, ADF recognizes the
        programs in Nigeria.                                                 need to provide appropriate
                                                                             marking of its projects to
                                                                             indicate that its grantees
                                                                             benefit from American aid.
                                                                             ADF will develop and
                                                                             approve a branding policy for
                                                                             its programs, and ensure that
                                                                             the policy is adhered to in
                                                                             Nigeria. The policy will be
                                                                             submitted to the OIG.




                                                                24 

                                                                                      Appendix II




Page and Line Specific Comments to: Draft IG Nigeria Audit Report No. 7-ADF-11-00X-P,
December 2010

1. HOUSING CONSTRUCTION WAS DELAYED

‐   Page 4: Please clarify what memorandum of understanding is being referenced in the first
    and second paragraphs. ADF and the Government of the State of Kano entered into a
    Memorandum of Understanding on September 24, 2004. This agreement was signed and
    formalized. A tripartite agreement between the Kano State Government, ADF, and the
    individual grantees under the Kano State housing project was drafted in 2007 but never
    signed or formalized.

‐   Page 4, 2nd paragraph: delete the sentence: “However, because the agreement was not
    formalized and was not specific about when the land was to be provided, Kano State was
    slow in identifying land for the construction of houses and providing the legal
    authorization”. This is an inaccurate statement. First, it appears the agreement referred to is
    the MOU, which was signed. Second, there was nothing to indicate that specifying a time in
    the agreement to identify the land would have increased the speed at which the government
    responded. The government was fully aware that construction cannot possibly take place
    without the land and ADF, over an extended period of time has placed pressure on the
    government to identify land and emphasized that lack of land has stalled project
    identification.

2. LOW INCOME HOUSES WERE NOT OCCUPIED BY ELIGIBLE BENEFICIARIES

‐   Page 5, paragraph 3 states: “Kano government and ADF have allocated some of these
    houses...” ADF was not, is not and should not be involved in the allocation of the houses,
    because it does not have the authority to do so. ADF has no ownership interest in the houses
    once they are constructed and turned over to the government. However ADF should concur
    on the criteria that KSHC uses to allocate the houses.

‐   Paragraph 6, last paragraph, line 6 states: “…the Kano government was not complying with
    ADF regulations for selecting beneficiaries and distributing the houses.” There were no
    ADF regulations. There was only mutually agreed upon broad criteria, primarily based on
    the income of the beneficiary.

‐   Paragraph 6, last paragraph, last sentence reads: “However, ADF evaluated the situation
    and decided to proceed with the remaining houses because terminating the housing project
    may negatively impact other projects in Nigeria. As a result, qualified beneficiaries have not
    benefited from the project”. There is nothing in the report to substantiate that ADF’s
    decision last July to continue with the project prevented eligible beneficiaries from
    benefiting. This conclusion needs to be backed up with specific facts or deleted from the
    report.

‐   With respect to several of the recommendations on the housing construction project (i.e.,
    Recommendation Nos. 3-6, 8), please note that since the summer of 2010, ADF has been
    negotiating a new agreement with the Kano State Government (in the form of a program
    implementation letter (PIL) under the MOU) that will cover: identification and donation of
    the land for the construction; project site suitability; selection of beneficiaries for the


                                               25 

                                                                                       Appendix II


    housing units and the selection criteria to be followed; construction quality assurances. The
    agreement will not, however, be a tripartite agreement. ADF has already entered into grant
    agreements with each of the grantee construction companies.

3. THE QUALITY OF CONSTRUCTED HOUSES WAS NOT ADEQUATE

‐   With respect to Recommendation No. 10, please note that, for the housing units already
    constructed, upon completion of the construction and certification as to the quality of the
    construction, the grantees are the legal owners of the house until they are transferred to a
    beneficiary.

4. ACTIVITY MONITORING BY ADF AND DDI WAS NOT ADEQUATE

‐   Page 10: Please note, with respect to the PHAN project, that training did take place and a
    training report was provided; in addition, the loan fund has been established.

‐   Page 10: Please note, with respect to the Sorghum project, that DDI has been working with
    the grantee to revise the timelines for completion of project activities.

‐   Page 11: Please note, with respect to the CDC project, that DDI has been working with the
    grantee to revise the timelines for completion of project activities and that it thus may be
    premature to state that “The Centre did not meet several of its goals.”

5. BRANDING AND MARKING POLICY NEEDED

‐   Page 12: With respect to the first paragraph on Branding, please note that ADF programs
    do not fall under Section 641 of the Foreign Assistance Act and ADF is therefore not
    required to brand and mark its projects under that Act. ADF, however, is in the process of
    developing a branding and marking policy; in addition, it has been a longstanding practice
    of ADF that equipment and other items purchased with ADF grant funds are identified with
    a label bearing ADF’s name.

‐   Page 12: With respect to item #3 on Branding, all five of the housing locations visited by
    the audit team had signage identifying them as ADF projects. If the signage in place was
    “not appropriately branded or marked” it should be specified in what way it was not
    appropriate.




                                               26 

U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
